         Office of Inspector General




September 30, 2006

MEGAN J. BRENNAN
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

SUBJECT: Audit Report - Bridgeport, Connecticut, Processing and Distribution Facility
         Outgoing Mail Consolidation (Report Number NO-AR-06-010)

This report presents the results of our audit of the Bridgeport, Connecticut, Processing
and Distribution Facility (Bridgeport P&DF) outgoing mail consolidation (Project Number
06YG012NO000). The U.S. Postal Service requested the audit and we conducted it in
cooperation with the Northeast Area. The objective of this audit was to determine if the
consolidation of Bridgeport P&DF outgoing mail processing operations was justified.

We concluded the Postal Service was justified in moving outgoing mail processing
operations from the Bridgeport P&DF to the Stamford, Connecticut, Processing and
Distribution Center (Stamford P&DC). The consolidation should have minimal impact
on employees, make use of excess mail processing capacity, reduce labor costs,
increase processing efficiency, and potentially improve delivery service. Transportation
costs may increase slightly but the consolidation will allow expansion of Bridgeport
P&DF carrier operations. The Postal Service implemented this consolidation during our
audit. Consequently, we did not make recommendations pertaining to the consolidation
itself, since our assessment supported management’s actions.

We arrived at the same conclusion the Postal Service did in its area mail processing
(AMP) proposal, although there were some methodology differences. In addition, we
identified some weaknesses in management controls over the processing and approval
of the AMP proposal. We made two recommendations in this report addressing these
issues.

Management agreed with our recommendations and has taken action to address the
issues in this report. Management’s comments and our evaluation of these comments
are included in this report.
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Robert J. Batta,
Director, Network Operations - Processing, or me at (703) 248-2100.

 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    David E. Williams
    Kristin A. Seaver
    Steven R. Phelps
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                      NO-AR-06-010


                                     TABLE OF CONTENTS

 Executive Summary                                                                i

 Part I

 Introduction                                                                    1

     Background                                                                  1
     Objective, Scope, and Methodology                                           2
     Prior Audit Coverage                                                        3

 Part II

 Audit Results                                                                   5

     Assessment of Consolidating the Bridgeport Processing and                   5
     Distribution Facility’s Outgoing Mail Processing Operations
           Employee Impact                                                       5
           Mail Processing Capacity                                              6
           Labor Costs                                                           8
           Mail Processing Efficiency                                            9
           Delivery Service                                                     10
           Transportation                                                       11
           Other Benefits                                                       11
     Management’s Comments                                                      12
     Evaluation of Management’s Comments                                        12

      Management Controls                                                       13
      Recommendations                                                           14
      Management’s Comments                                                     14
      Evaluation of Management’s Comments                                       14

 Appendix A. Northeast Area Map                                                 15

 Appendix B. Prior Audit Coverage                                               16

 Appendix C. Comparison of Area Mail Processing Proposal to Office of           17
             Inspector General Analysis

 Appendix D. Craft Hour Reduction Reconciliation                                18
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                         NO-AR-06-010




 Appendix E. First Handling Piece Productivity by Day of Week,                     20
             Stamford Processing and Distribution Center
             Fiscal Years 2004 and 2005

 Appendix F. Cost Per 1,000 Pieces, First Handling Pieces Letters                  21

 Appendix G. Management’s Comments                                                 22



Tables, Charts, and Figures

 Figure 1.     First-Class Actual (FY 2001-2005) and Projected (FY 2006-             1
               2010) Mail Volume

 Chart 1.      FY 2004 Stamford P&DC’s Excess Capacity Compared to                   7
               Bridgeport P&DF’s Outgoing Mail Volume

 Table 1.      Staff and Workhour Changes                                            8

 Table 2.      Analysis of Delivery Service Changes                                 11
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                 NO-AR-06-010


                                    EXECUTIVE SUMMARY
 Introduction                    At management’s request, the U.S. Postal Service Office of
                                 Inspector General reviewed the proposed consolidation of
                                 outgoing mail processing operations at the Bridgeport,
                                 Connecticut, Processing and Distribution Facility (Bridgeport
                                 P&DF) into the Stamford, Connecticut, Processing and
                                 Distribution Center (Stamford P&DC). Our primary objective
                                 was to determine if the consolidation was justified. We also
                                 compared our results to the Postal Service’s area mail
                                 processing (AMP) proposal. In addition, we examined
                                 management controls over the processing and approval of
                                 the AMP proposal.

 Results in Brief                The Postal Service was justified in moving outgoing mail
                                 processing operations from the Bridgeport P&DF to the
                                 Stamford P&DC. The consolidation should have minimal
                                 impact on employees, make use of excess mail processing
                                 capacity, reduce labor costs, increase processing efficiency,
                                 and potentially improve delivery service. Transportation
                                 costs may increase slightly but the consolidation would
                                 allow expansion of Bridgeport P&DF carrier operations. The
                                 Postal Service implemented this consolidation during our
                                 audit. We are not making recommendations pertaining to
                                 the consolidation itself, since our assessment supported
                                 management’s actions.

                                 We arrived at the same conclusion the Postal Service did in
                                 its AMP proposal although there were some methodology
                                 differences. We are not making any recommendations on
                                 the methodology differences in this report. These are policy
                                 issues that apply to all AMP proposals, and we will address
                                 them in a separate report to Postal Service Headquarters.

                                 We also identified some weaknesses in management
                                 controls over the processing and approval of the AMP
                                 proposal. We have included two recommendations
                                 addressing these issues.

 Summary of                      We recommended that Postal Service maintain supporting
 Recommendations                 documentation and use current data for future AMP
                                 proposals.




                                                     i
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                              NO-AR-06-010




 Summary of                      Management agreed with our recommendations. Regarding
 Management’s                    future AMP proposals, management agreed to maintain
 Comments                        supporting documentation and use current data.
                                 Management requested we revise the report to
                                 acknowledge Postal Service’s documented assessment of
                                 mail processing capacity and add information contained in
                                 the body of the report on employee impact to Appendix C.
                                 Management’s comments, in their entirety, are included in
                                 Appendix G.

 Overall Evaluation of           Management’s comments are responsive to our
 Management’s                    recommendations and their actions taken should correct
 Comments                        the issues identified in this report. Regarding
                                 management’s request to modify the report, we added
                                 verbiage regarding the mail processing capacity
                                 assessment and provided more information in Appendix C.




                                                     ii
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                                                     NO-AR-06-010


                                                                      INTRODUCTION
    Background                                             The U.S. Postal Service is attempting to right-size its
                                                           domestic network in response to declines in First-Class
                                                           Mail® volume, increased competition to traditional mail
                                                           products from the private sector, increased automation
                                                           and mail processing by mailers, and shifts in population
                                                           demographics. Despite a recent increase in mail volume,
                                                           the aggregate volume of First-Class Mail declined by
                                                           5 percent (or 5.5 billion pieces) from fiscal years
                                                           (FY) 2001 to 2005. In addition, the Postal Service
                                                           projects First-Class Mail volume will continue to decline.
                                                           Figure 1 shows these trends. The mail volumes at the
                                                           Bridgeport, Connecticut, Processing and Distribution
                                                           Facility (Bridgeport P&DF) follow similar trends, while the
                                                           Stamford, Connecticut, Processing and Distribution
                                                           Center (Stamford P&DC) mail volumes increased over
                                                           this period because of incorporating Bridgeport P&DF’s
                                                           various mail processing operations into its operations.

                                                    Figure 1. First-Class Actual (FY 2001-2005) and
                                                         Projected (FY 2006-2010) Mail Volume


                                 120




                                 100
            Pieces in Billions




                                 80




                                 60




                                 40




                                 20




                                  0
                                       FY 2001   FY 2002    FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010

                                                                                 Fiscal Years




                                                           The Bridgeport P&DF is a Group 7 facility and the Stamford
                                                           P&DC is a Group 4 facility.1 Both are located in the
                                                           Connecticut Customer Service District, Northeast Area.
                                                           (See Appendix A for a map of the Northeast Area.) During
1
 In FY 2004, Group 4 plants processed between 623 million to 1.5 billion mailpieces, while Group 7 plants processed
no more than 432 million mailpieces.



                                                                                    1
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                      NO-AR-06-010


                                    our review, the Bridgeport P&DF processed inbound2 and
                                    outbound mail3 for Bridgeport, Connecticut, and associate
                                    offices in the surrounding area. The Stamford P&DC
                                    processed inbound and outbound mail for Stamford,
                                    Connecticut, and associate offices in the surrounding area.

                                    The Transformation Plan states the Postal Service is
                                    committed to improving its operational efficiency by
                                    consolidating mail processing operations, when feasible. In
                                    addition, the President’s Commission4 found the Postal
                                    Service had more facilities than needed and recommended
                                    optimizing the facility network by closing and consolidating
                                    unneeded processing centers.

                                    The Postal Service uses the area mail processing (AMP)
                                    process to consolidate mail processing functions and to
                                    eliminate excess capacity, increase efficiency, and better
                                    use resources. The Postal Service defines AMP as “the
                                    consolidation of all originating and/or destinating
                                    distribution operations from one or more post offices into
                                    another automated or mechanized facility to improve
                                    operational efficiency and/or service.” This process has
                                    been refined over 3 decades as mail processing has
                                    evolved from a manual and mechanized process to an
                                    automated one.

    Objective, Scope, and           At Postal Service management’s request, we reviewed the
    Methodology                     AMP proposal to consolidate outgoing mail processing
                                    operations at the Bridgeport P&DF into the Stamford P&DC.
                                    Our primary objective was to determine if the consolidation
                                    was justified. We also compared the results of our analysis
                                    to the AMP proposal.

                                    We examined the potential impact of the consolidation on
                                    employees, labor costs, delivery service, transportation,
                                    equipment, and space. We reviewed applicable network
                                    change guidelines, including Handbook PO-408, Area Mail
                                    Processing (AMP) Guidelines, and the Area Mail Processing
                                    (AMP) Communications Plan. We performed trend
                                    analyses of mail volume, workhours, and productivity for
                                    each facility and other analytical procedures as necessary.

2
  Mail intended for the processing facility’s delivery area.
3
  Outbound or outgoing mail is sorted within a mail processing center and dispatched to another facility for additional
processing and delivery.
4
  The President’s Commission on the United States Postal Service reported its findings on July 31, 2003.



                                                           2
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                   NO-AR-06-010



                                   In addition, we examined the management controls over the
                                   processing and approval of the AMP proposal.

                                   We relied on Postal Service data systems, including the
                                   Breakthrough Productivity Initiative website, the
                                   Management Operating Data System, the Web Enterprise
                                   Information System, Activity Based Costing System, and the
                                   Enterprise Data Warehouse to analyze mail volume and
                                   workhours.5 We also used data from the Transportation
                                   Contract Support System and Transportation Information
                                   Management Evaluation System to review transportation
                                   issues and data from the Service Standards Directory to
                                   review service commitments. We verified key data included
                                   in the AMP proposal with Postal Service records and
                                   reports. We did not verify all data used to support the AMP
                                   proposal due to time constraints but focused on those areas
                                   with the potential for greatest impact. We also checked the
                                   accuracy of data by confirming our analyses and results
                                   with Postal Service managers.

                                   From Postal Service Headquarters, we obtained an analysis
                                   that used Evolutionary Network Development (END)
                                   simulation models to determine the feasibility of the
                                   Bridgeport AMP proposal.6 The actual consolidation may
                                   result in differences from initial projections for workhour
                                   reductions, service standards and transportation and other
                                   projected costs.

                                   We conducted this audit from November 2005 through
                                   September 2006, in accordance with generally accepted
                                   government auditing standards and included such tests
                                   of internal controls as we considered necessary under
                                   the circumstances. We discussed our observations and
                                   conclusions with management officials and included their
                                   comments where appropriate.

    Prior Audit Coverage           We issued three prior reports, one on the AMP Guidelines
                                   and two on the efficiency of mail processing operations at
                                   the Main Post Office in Mansfield, Ohio, and at the Canton,
                                   Ohio, P&DC. The site-specific reviews included our


5
 We used FY 2004 data to be consistent with data in the AMP proposal.
6
 We did not audit the END simulation model outputs or verify the analysis provided, nor did we assess how this
specific AMP fit into the overall END strategy.



                                                         3
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                               NO-AR-06-010



                                 assessment of proposed consolidations. (For details of
                                 prior audit coverage, see Appendix B.)




                                                     4
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                NO-AR-06-010


                                           AUDIT RESULTS
    Assessment of                 The Postal Service realized that excess processing capacity
    Consolidating the             existed within the domestic mail processing network of the
    Bridgeport                    Connecticut Customer Service District. To better use this
    Processing and                capacity, the Postal Service consolidated the Bridgeport
    Distribution Facility’s       P&DF’s outgoing mail processing operations into the
    Outgoing Mail                 Stamford P&DC.
    Processing
    Operations                    We concluded the Postal Service was justified in moving
                                  outgoing mail processing operations from the Bridgeport
                                  P&DF into the Stamford P&DC. The consolidation should
                                  minimally impact employees, make use of excess mail
                                  processing capacity, reduce labor costs, increase
                                  processing efficiency, and potentially improve delivery
                                  service. Transportation costs may increase slightly but the
                                  consolidation would allow expansion of the Bridgeport
                                  P&DF’s carrier operations.

                                  We arrived at the same conclusion the Postal Service did in
                                  its AMP proposal although there were some methodology
                                  differences. We are not making any recommendations at
                                  this time as the consolidation has already occurred. We will
                                  issue a separate report to Postal Service Headquarters
                                  addressing methodology differences, as these are policy
                                  issues that apply to all AMP proposals. (See Appendix C for
                                  a summary comparison of the AMP to our analysis.)

                                  Title 39 U.S.C. Chapter 4, Section 403 (a) states “The
                                  Postal Service shall plan, develop, promote, and provide
                                  adequate and efficient postal services . . . .” Further,
                                  Handbook PO-408 sets forth guidelines for making changes
                                  to the processing network.7

    Employee Impact               We concluded consolidation of outgoing mail processing
                                  operations should result in no job losses for career
                                  employees8 because of the attrition potential at both
                                  facilities. The AMP proposal stated the Postal Service was
                                  to eliminate 27 craft and six management positions at the
                                  Bridgeport facility. However, in calendar year 2006, 29 of
                                  the 95 employees (30 percent) at the Bridgeport P&DF and

7
  Handbook PO-408 provides a framework for changes to the mail processing network; states that changes should
support the Postal Service’s strategic objectives and make optimum use of available resources; and establishes
management’s accountability for making decisions.
8
  Career employees include both management and craft employees.



                                                        5
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                NO-AR-06-010


                                  112 of the 446 employees (25 percent) at the Stamford
                                  P&DC will be eligible to retire.

                                  The AMP proposal did not address how the Postal Service
                                  would reduce staff. However, through our discussions, the
                                  Postal Service did advise that no career employees would
                                  lose their jobs. Employees would retire, or make voluntary
                                  or involuntary moves to other plants with open positions.
                                  (See Appendix C for a summary comparison of employee
                                  impact.)

    Mail Processing               We found there was enough excess capacity at the
    Capacity                      Stamford P&DC to handle the Bridgeport P&DF outgoing
                                  mail processing operations. The Bridgeport P&DF would
                                  transfer almost 40 million pieces (or about 14 percent) of
                                  its FY 2004 total pieces handled (TPH)9 mail volume to
                                  the Stamford P&DC. Based on this reduction in volume,
                                  we estimate the Bridgeport P&DF could reduce mail
                                  processing craft workhours by 23,767 (14 full-time
                                  equivalent employees) and management workhours by
                                  1,806 (1 full-time equivalent employee).10

                                  The craft workhour reduction is based on eliminating
                                  100 percent of the workhours associated with outgoing
                                  operations11 and 14 percent of the workhours used to
                                  process both incoming and outgoing mail.12 The
                                  management workhour reduction is based on reducing
                                  those hours by the same percentage as the volume of mail
                                  being transferred. 13

                                  The Stamford P&DC could absorb the additional workload
                                  without using additional workhours. The transfer of almost
                                  40 million pieces to the Stamford P&DC represents just
                                  3 percent of the Stamford P&DC FY 2004 TPH mail volume.
                                  In addition, in FY 2004, the Stamford P&DC had sufficient

9
  TPH refers to the number of handlings necessary to distribute each piece of mail from the time of receipt to
dispatch, including multiple handlings of each piece.
10
   Full-time equivalent employees are based on the FY 2004 work year of 1,754 hours for craft employees and
1,819 hours for supervisory employees rounded to the next highest whole number (i.e., 23,767/1754 = 13.55 or
14 craft employees).
11
   These operations included 046, 271, 272, 831, 841, 881, 891, 892, 029, 030, 040, 100, 776, 010, 011, 014, 015,
017, 018, 020, 021, 02B, 066, 067, 110, 111, 120, 124, and 125.
12
   We reduced 14 percent (same percentage as the volume being transferred) of the Bridgeport P&DF workhours in
operations 231, 131, and 585. In FY 2004, these workhours totaled 10,932. These workhours multiplied by
14 percent result in a 1,530 workhour reduction.
13
   In FY 2004, the Bridgeport P&DF used 12,897 management hours. The number of management hours (operations
701 and 927) multiplied by 14 percent equals 1,806.



                                                        6
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                     NO-AR-06-010


                                 capacity to process an additional 410 million TPH per year,
                                 which is 10 times what would be transferred. Chart 1 shows
                                 the Stamford P&DC excess capacity compared to
                                 Bridgeport P&DF outgoing mail volume.

                      Chart 1. FY 2004 Stamford P&DC Excess Capacity Compared to
                                 Bridgeport P&DF’s Outgoing Mail Volume*




       450,000,000
       400,000,000
                                                                      410,283,638
       350,000,000
       300,000,000
       250,000,000
       200,000,000
       150,000,000
       100,000,000
         50,000,000                   39,954,614

                  0
                           Bridgeport Outgoing TPH          Stamford Excess Capacity


 *Stamford P&DC excess capacity is based on the Stamford P&DC obtaining the top 10 Group 4 facility
 average TPH of 2,181 pieces per workhour.

                                 Moreover, the Stamford P&DC achievement to target
                                 productivity levels, compared with other similar-sized plants,
                                 indicated the Stamford P&DC should be able to absorb this
                                 workload without using additional workhours. For example,
                                 in FY 2004, based on TPH, the Stamford P&DC processed
                                 1,646 mail pieces per workhour, achieved 64 percent of
                                 target productivity levels, and ranked 29th out of 48 similar-
                                 sized facilities. The average of the top 10 similar-sized
                                 facilities in FY 2004 was 2,181 pieces per workhour, with an
                                 achievement of 81 percent of target productivity levels.
                                 Absorbing the Bridgeport P&DF workload without any
                                 additional workhours would result in the Stamford P&DC
                                 obtaining a productivity of 1,698 mailpieces per workhour
                                 and an achievement of 66 percent of target productivity
                                 levels. This resulting productivity level is still below the
                                 top 10 average.

                                 Our review of the Bridgeport P&DF AMP proposal indicated
                                 the Postal Service did not directly examine the Stamford



                                                     7
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                NO-AR-06-010


                                  P&DC’s capacity. The Postal Service concluded that
                                  sufficient capacity existed based on an assessment of
                                  machine requirements and the transfer of a small amount of
                                  mail relative to the Stamford P&DC overall mail processing
                                  volume. (See Appendix C for a summary comparison of
                                  mail processing capacity.)

 Labor Costs                      We determined consolidation would allow the Postal Service
                                  to reduce 23,767 craft and 1,806 management workhours.
                                  The AMP proposal showed reductions of 16,062 craft and
                                  11,040 management workhours. Table 1 shows the AMP
                                  and U.S. Postal Service Office of Inspector General (OIG)
                                  staff and workhour changes.

                                  Table 1: Staff and Workhour Changes
                                        Craft           Craft         Management        Management
                                      Employees       Workhours          Staff          Workhours
                     AMP
            Bridgeport                         -27         -28,871                 -6         -11,040
            Stamford                             4          12,809
                       Net Change              -23         -16,062                 -6         -11,040

                     OIG
            Bridgeport                         -14         -23,767                 -1          -1,806
            Stamford
                       Net Change              -14         -23,767                 -1           -1,806


                                  The number of workhours and staffing in the AMP proposal
                                  differed from those in our analysis. In reconciling the AMP
                                  proposal with our analysis, we found:

                                  •   Reductions in staff of 27 craft employees did not equate
                                      to the 28,871 craft workhours the Postal Service
                                      proposed to reduce in the AMP proposal. The number of
                                      proposed staff reductions based on the FY 2004 work
                                      year would equate to 47,358 craft hours.14 In addition,
                                      estimated staff reductions the AMP proposal appear to
                                      be excessive based on the volume of mail being
                                      transferred. For example, the Bridgeport P&DC planned
                                      to transfer 14 percent of its volume but reduce its staff by
14
  Based on workhour rates for FYs 2004-2006 found on the Postal Service website, a work year equates to
1,754 craft and 1,819 management hours. This would mean that a staff reduction of 27 craft employees would
equal 47,358 workhours (27 times 1,754) and 10,914 (6 times 1,819) management workhours.



                                                       8
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                    NO-AR-06-010


                                        35 percent.15 The AMP proposal did not cover the
                                        change in workload when calculating staff reductions.
                                        We found no supporting documentation that
                                        demonstrated the relationship between staff and
                                        workhour reductions.

                                   •    Management staff reductions also appeared excessive
                                        for the mail volume changes. For example, the AMP
                                        proposes a 60 percent reduction in management staff16
                                        for a 14 percent reduction in mail volume. Again, there
                                        was no explanation in the AMP proposal as to how the
                                        Postal Service determined this reduction.

                                   •    Craft workhour reductions in the AMP proposal did not
                                        always agree with our analysis. The Postal Service did
                                        not include all workhours for the Bridgeport P&DF’s
                                        outgoing mail processing operations. In addition, they
                                        included some workhours associated with incoming
                                        operations. Appendix D compares our calculations for
                                        workhour reductions for each mail processing operation
                                        with the Postal Service’s.

                                   See Appendix C for a summary comparison of labor costs.

 Mail Processing                   We found consolidation of the Bridgeport P&DF’s outgoing
 Efficiency                        mail processing operations would also improve efficiency at
                                   the Stamford P&DC. The consolidation would allow the
                                   Stamford P&DC to use excess capacity and improve mail
                                   processing capabilities. In FY 2004, the Stamford P&DC
                                   had over 10,525 idle time hours on the delivery barcode
                                   sorter. The facility could use this idle time to process over
                                   399 million letters17 without using additional workhours.
                                   Additionally, the Stamford P&DC achievement to target
                                   productivity would increase from 64 percent to 66 percent if
                                   the facility did not use additional workhours to process the
                                   additional workload.

                                   Our review showed that increases in mail volume would
                                   improve productivity at the Stamford P&DC. For example,
                                   the Stamford P&DC had previously absorbed all Saturday
                                   outgoing mail for the Bridgeport P&DF with no increase in
                                   workhours. As a result, the Stamford P&DC experienced a
15
   27 reduced craft positions divided by 77 total craft positions at the Bridgeport P&DF.
16
   Six reduced management positions divided by a total management staff of 10 at the Bridgeport P&DF.
17
   93 percent of the almost 40 million pieces being transferred to the Stamford P&DC for processing were letters.



                                                          9
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                       NO-AR-06-010


                                    30 percent increase in productivity for Saturday mail
                                    compared to average weekday productivity. The Stamford
                                    P&DC processed an average of 968 First Handling Pieces
                                    (FHP) per workhour on Saturday compared to an average of
                                    746 FHPs on weekdays. Appendix E displays the Stamford
                                    P&DC productivity by day of the week. In addition, the
                                    Stamford P&DC is scheduled to receive a delivery input
                                    output sub-system,18 which will further improve efficiency by
                                    combining several other mail processing operations.

                                    Processing mail at the Stamford P&DC would also be
                                    less expensive compared to processing mail at the
                                    Bridgeport P&DF. For example, in September 2004, it
                                    cost $32.71 to process 1,000 pieces of letter mail at the
                                    Stamford P&DC compared to $46.62 at the Bridgeport
                                    P&DF. This cost difference of nearly 43 percent reflects the
                                    ability of Stamford P&DC to process mail more efficiently.
                                    Appendix F shows the cost to process mail from October
                                    2003 to September 2004.

                                    Our review of the Bridgeport P&DF AMP proposal indicates
                                    the Postal Service did not examine the potential effects of
                                    consolidation on processing efficiency. The Postal Service,
                                    however, does assume that some efficiency gains would be
                                    achieved when transferring mail processing to another
                                    facility. (See Appendix C for a summary comparison of mail
                                    processing efficiency.)

 Delivery Service                   We determined delivery service should improve as a result
                                    of the consolidation. Our analysis showed there would be
                                    361 upgrades with only 58 downgrades, resulting in a net
                                    service improvement of 303 upgrades. We identified no
                                    downgrades for First-Class Mail. Table 2 shows our
                                    analysis of delivery service changes.




18
  A delivery input output subsystem is an automated machine that distributes letter mail and has the ability to lift and
send letter images to a remote encoding center for resolution.



                                                           10
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                        NO-AR-06-010




                                            Table 2. Analysis of Delivery Service Changes
                                                     OIG Analysis of 3-Digit Pairings
                                                             Upgrades        Downgrades        Net
                                  Priority Mail®                 9                 0            9
                                  First Class Mail               29                0           29
                                  Periodicals                    67                0           67
                                  Packages                      212              (53)          159
                                  Standard Mail®                 44               (5)          39
                                           Totals               361              (58)          303


                                 In comparison, the AMP proposal identified improvements in
                                 delivery service for 13 First-Class Mail three-digit pairings
                                 serviced by the Bridgeport P&DF and indicated there would
                                 be no downgrades to service commitments in the other
                                 classes of service. The AMP analysis primarily focused on
                                 First-Class and Priority Mail service. (See Appendix C for a
                                 summary comparison of delivery service.)

 Transportation                  We found the $234,350 in transportation savings identified
                                 in the AMP proposal were not supported. The Postal
                                 Service used data from the 2001 AMP proposal. Our
                                 analysis of the AMP data found expired transportation
                                 contracts, contracts unrelated to the consolidation, and an
                                 omitted contract the Postal Service should have considered.
                                 We brought these discrepancies to the Postal Service’s
                                 attention. Management conducted a new transportation
                                 evaluation and revised the estimated transportation savings
                                 to show a cost of about $13,000, which was in agreement
                                 with our estimate. (See Appendix C for a summary
                                 comparison of transportation.)

                                 The Bridgeport P&DF and Stamford P&DC are within
                                 23 miles of each other on a major interstate highway and
                                 this close proximity facilitates the consolidation of mail
                                 processing operations.

 Other Benefits                  We also found this consolidation could result in an
                                 additional benefit. Moving the Bridgeport P&DF outgoing
                                 mail processing operation to the Stamford P&DC would



                                                     11
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                NO-AR-06-010



                                 reduce workroom floor congestion and allow the Postal
                                 Service to centralize carrier operations. We found crowded
                                 conditions throughout the Bridgeport P&DF, including the
                                 dock, staging areas, and various workstations. The Postal
                                 Service planned to use the vacated space for carrier
                                 operations located at various associated offices.

                                 The AMP did not consider this additional benefit in its
                                 analysis. (See Appendix C for a summary comparison of
                                 other benefits.)

                                 We are not making any recommendations since our
                                 assessment supported management’s actions and the
                                 consolidation has already occurred. We will issue a
                                 separate report to Postal Service Headquarters addressing
                                 methodology differences as these are policy issues that
                                 apply to all AMP proposals.

 Management’s                    Management requested we revise the report to
 Comments                        (1) acknowledge Postal Service’s documented
                                 assessment of mail processing capacity, and (2) add
                                 information contained in the body of the report on employee
                                 impact to Appendix C.

 Evaluation of                   We have considered management’s comments regarding
 Management’s                    capacity and employee impact, and have the following
 Comments                        comments.

                                 Regarding capacity, management stated they did assess
                                 mail processing capacity based on machine requirements.
                                 The Northeast Area prepared the AMP proposal “Equipment
                                 Relocation” worksheet, which determines equipment needs
                                 for the gaining and losing facilities. We acknowledge this
                                 worksheet may allow management to infer that sufficient
                                 capacity exists at the macro-level and we adjusted the
                                 report to reflect this assessment.

                                 Regarding employee impact, management requested that
                                 information addressed in the text of the report also be
                                 included in Appendix C and we made the requested
                                 change.




                                                     12
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                  NO-AR-06-010




 Management Controls While comparing our results with the AMP proposal, we
                     noted weaknesses in management controls over the
                     processing and approval of the AMP proposal. Specifically,
                     we found:

                                  •   Headquarters, area, and district managers were asked
                                      to review the AMP proposal and provide comments and
                                      concerns, but did not detect they had used outdated
                                      data for service commitments, transportation, and
                                      associated annual cost worksheets. Similar issues have
                                      been brought to the attention of the Vice President,
                                      Network Operations Management, in a prior audit;
                                      therefore, no further recommendation is required.

                                  •   Documentation supporting the projected savings and
                                      costs in the AMP proposal was not always available.
                                      Specifically, the Postal Service did not maintain
                                      supporting documentation for projected impacts on
                                      service commitments, transportation, and annual
                                      associated costs.

                                  •   Data used in the AMP proposal were not always up to
                                      date. The Postal Service had not updated the data on
                                      First-Class Mail service commitments, transportation,
                                      and annual associated costs worksheets since the 2001
                                      proposal.19

                                  Handbook PO-408 requires management to keep all
                                  supporting documentation on file until completion of the
                                  post-implementation review. Supporting documentation
                                  should include, at a minimum, the methodology used.

                                  Internal control weaknesses and delays in implementing the
                                  AMP contributed to these deficiencies. The Postal Service
                                  also acted quickly to implement the AMP proposal without
                                  ensuring it was prepared properly. As a result, the Postal
                                  Service incurred the risk of making an incorrect decision.




19
     The 2001 AMP proposal was never implemented.



                                                     13
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                NO-AR-06-010




 Recommendations                 We recommend the Vice President, Northeast Area
                                 Operations:

                                 1. Maintain supporting documentation used to prepare the
                                    area mail processing proposal, including methodology
                                    and assumptions, until completion of the post-
                                    implementation review.

                                 2. Use the most current data available on future area mail
                                    processing proposals.

 Management’s                    Management agreed with our recommendations.
 Comments                        Management plans to maintain supporting documentation
                                 and use current data in all future AMP proposals.

 Evaluation of                   Management’s comments are responsive to our
 Management’s                    recommendations. Management’s actions should correct
 Comments                        the issues identified in this report.




                                                     14
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation        NO-AR-06-010




                                       APPENDIX A
                                   NORTHEAST AREA MAP




                                                     15
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                           NO-AR-06-010



                                        APPENDIX B
                                   PRIOR AUDIT COVERAGE

The OIG report titled Area Mail Processing Guidelines (Report Number NO-AR-06-001,
dated December 21, 2005) found the AMP process was fundamentally sound, appeared
credible and provided a post-implementation review process to assess results from mail
processing consolidations. However, management of the AMP process and guidance
could be improved. AMP proposals were not processed or approved in a timely
manner, post-implementation reviews were not always conducted, and stakeholders’
resistance affected the approval process. The report recommended the Postal Service
update AMP guidance, comply with policy, and address stakeholder resistance.
Management agreed with the findings and recommendations.

The OIG report titled Efficiency Review of the Mansfield, Ohio, Main Post Office (Report
Number NO-AR-05-004, dated December 8, 2004) found the Postal Service could
increase operational efficiency at the Mansfield Main Post Office (MPO) by reducing
24,000 mail processing workhours, which would allow the Mansfield MPO to achieve
90 percent of targeted goals. This reduction is based on the assumption that mail
volume will not significantly change from FY 2003 levels and could produce a cost
avoidance of approximately $7.6 million based on a labor savings over 10 years. We
recommended the Manager, Northern Ohio District, reduce mail processing operations
at the Mansfield MPO by 52,000 workhours based on FY 2003 workhour usage. We
also recommended consolidating outgoing mail processing operations into the Akron
Processing and Distribution Center (P&DC), as the Eastern Area AMP study
recommended. Management agreed and the actions planned were responsive to the
issues identified.

The OIG report titled Efficiency Review of the Canton, Ohio, Processing and Distribution
Facility (Report Number NO-AR-05-013, dated September 22, 2005) found the Postal
Service could increase operational efficiency at the Canton P&DF by reducing
202,000 mail processing workhours. This reduction is based on the assumption that
mail volume will not significantly change from FY 2004 levels and could produce a cost
avoidance of approximately $64 million based on a labor savings over 10 years. We
recommended the Manager, Northern Ohio District, reduce mail processing operations
at the Canton P&DF by 93,000 workhours based on FY 2004 workhour usage. We also
recommended consolidating outgoing mail processing operations into the Akron P&DC,
thereby saving an additional 109,000 workhours. Management agreed and the actions
planned were responsive to the issues identified.




                                                     16
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                         NO-AR-06-010



                     APPENDIX C
COMPARISON OF AREA MAIL PROCESSING PROPOSAL TO OFFICE
           OF INSPECTOR GENERAL ANALYSIS

                                              AMP                                 OIG
 Employee Impact               Did not address how staff           Determined there would be no
                               reductions would be accomplished.   employee job loss.
                               However, through our discussions,
                               management did advise that no
                               career employees would lose their
                               jobs. Management also indicated
                               that employees would retire, or
                               make voluntary or involuntary
                               moves to other plants with open
                               positions.

 Mail Processing Capacity      Did not directly examine the        Determined the Stamford P&DC
                               Stamford P&DC capacity.             had the capacity to process an
                               Management estimated capacity       additional 410 million mailpieces
                               based on machine requirements of    annually.
                               the gaining facility.

 Labor Costs                   Determined a net reduction of       Determined a reduction of 23,767
                               16,062 craft workhours (loss of     craft workhours at Bridgeport
                               28,871 at Bridgeport P&DF and       P&DF. No additional workhours at
                               gain of 12,809 at Stamford P&DC).   Stamford P&DC.

 Mail Processing Efficiency    Did not examine the potential       Determined the Stamford P&DC
                               effects of the consolidation on     performance achievement to target
                               processing efficiency.              productivity levels should increase
                                                                   from 64 percent to 66 percent.
                                                                   Also, the cost to process mail at the
                                                                   Stamford P&DC is less than
                                                                   Bridgeport P&DF.

 Delivery Service              Found 13 upgrades, no               Found 361 upgrades,
                               downgrades.                         58 downgrades, for a net of
                                                                   303 upgrades.

 Transportation                Estimated $234,000 in savings.      Estimated $13,000 in additional
                                                                   costs.

 Other Benefits                Did not address other benefits.     Determined a reduction in floor
                                                                   congestion would allow
                                                                   centralization of carrier operations.




                                                     17
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                     NO-AR-06-010


       APPENDIX D. CRAFT HOUR REDUCTION RECONCILIATION
OPER. NO.          OPERATION                                OIG       AMP
46          ISS - RETURN TO SENDER                           (5)
271         DBCS/DIOSS OSS O/G PRIMARY                    (2,774)    (2,632)
272         DBCS/DIOSS OSS O/G SECONDARY                   (116)      (161)
831         MLOCR-OUTGOING PRIMARY                          (21)       (21)
841         MLOCR CHUNKY MOD - O/G PRIMARY                 (104)
881         MLOCR-ISS - OUTGOING PRIMARY                  (1,738)    (1,803)
891         DBCS/DIOSS BCS O/G PRIMARY                     (124)      (187)
892         DBCS/DIOSS BCS O/G SECONDARY                    (92)      (136)
893         DBCS/DIOSS BCS MANAGED MAIL                                 (8)
894         DBCS/DIOSS BCS I/C SCF PRIMARY                             (16)
                                       Total LDC 11       (4,975)    (4,964)

145         AFSM 100 - ATHS/AI - I/C PRI                               (75)
146         AFSM 100 - ATHS/AI - I/C SEC                               (41)
425         FSMOCR INCOMING PRIMARY                                    (88)
426         FSMOCR INCOMING SECONDARY                                 (791)
                                         Total LDC 12        0        (995)

30          MANUAL   LTR-OUTGOING PRIMARY                 (5,821)    (5,779)
40          MANUAL   LTR-OUTGOING SECONDARY               (1,016)    (1,040)
43          MANUAL   LTR-STATE DISTRIBUTION                            (16)
200         MANUAL   PARCELS-INCOMING                                (1,012)
                                         Total LDC 14     (6,836)    (7,847)

776         LETTER MAIL LABELING MACHINE                   (194)      (214)
                                       Total LDC 15        (194)      (214)

10          HAND CANCELLATIONS                              (70)       (77)
11          MICRO MARK                                                  (3)
14          FLYER                                          (792)     (1,402)
15          ADV FACER CANCELLER SYS                       (1,475)    (1,447)
17          CANCELLING OPERATIONS MISC                    (1,243)     (145)
18          COLLECTION MAIL SEPARATION                     (115)
20          METERED MIXED PREPARATION                     (2,707)    (2,570)
35          FLAT MAIL PREPARATION                                    (1,020)
110         OPENING UNIT - OUTGOING PREF                   (340)      (164)
111         OPENING UNIT - OUTGOING PREF                    (6)         (6)
114         MANUAL TRANSPORT/WEIGH (IN-HOUSE)                          (15)
120         POUCHING - OUTGOING                             (12)       (12)
123         POUCHING - INCOMING                                        (53)
124         DISPATCH UNIT - OUTGOING                      (3,476)
125         DISPATCH UNIT - OUTGOING                        (6)
180         OPENING UNIT - INCOMING PREF                              (197)
225         PLATFORM - MAIL FLOW CONTROL                             (1,629)
231         EXPEDITER                                       (929)
                                       Total LDC 17       (11,171)   (8,740)

109         DAMAGED PARCEL REWRAP                                     (106)
131         EXPRESS MAIL DISTRIB                           (111)
340         STANDBY - MAIL PROCESSING                                 (492)
560         MISC ACTIVITY - MAIL PROC                                (4,908)
585         REGISTRY SECTION                               (485)
607         STEWARDS - CLERKS - MAIL PROC                              (277)
612         STEWARDS-MAIL HANDLER - MAIL PROC                          (130)
677         ADMIN & CLER - PROCESSING & DISTRIB                        (198)
                                         Total LDC 18       (596)     (6,111)
                                        CRAFT TOTALS      (23,773)   (28,871)
                                     DIFFERENCE            (5,098)




                                                     18
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                             NO-AR-06-010




                          APPENDIX D (CONTINUED)
                   CRAFT HOUR REDUCTION RECONCILIATION

                                             ACRONYMS

 ADMIN & CLER - PROCESSING & DISTRIB                 Administrative & Clerical - Processing & Distribution
 ADV FACER CANCELLER SYS                             Advanced Facer Canceler System
 AFSM                                                Automated Flat Sorting Machine
 ATHS/AI                                             Automatic Tray Handling System/Automatic Induction
 BCS                                                 Bar Code Sorter
 DBCS                                                Delivery Bar Code Sorter
 DIOSS                                               Delivery Input Output Sub-System
 EXPRESS MAIL DISTRIB                                Express Mail Distribution
 FSMOCR                                              Flat Sorting Machine Optical Character Reader
 I/C                                                 Incoming
 I/C PRI                                             Incoming Primary
 I/C SEC                                             Incoming Secondary
 INCOMING PREF                                       Incoming First-Class and Periodical Mail
 ISS                                                 Input Sub-System
 LDC                                                 Labor Distribution Codes
 MANUAL LTR                                          Manual Letter
 MISC ACTIVITY - MAIL PROC                           Miscellaneous Activity - Mail Processing
 MLOCR                                               Multi-Line Optical Character Reader
 O/G                                                 Outgoing
 OPER                                                Operation
 OSS                                                 Output Sub-System
 OUTGOING PREF                                       Outgoing First-Class and Periodical Mail
 SCF                                                 Section Center Facility




                                                       19
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                                         NO-AR-06-010




                                               APPENDIX E
                           FIRST HANDLING PIECE PRODUCTIVITY BY DAY OF WEEK
                             STAMFORD PROCESSING AND DISTRIBUTION CENTER
                                       FISCAL YEARS 2004 AND 2005




                         1200




                         1000
                                       968



                         800                                                                790                         800
   Pieces per Workhour




                                                                               771                        776
                                                                  716

                                                                                                                                 Stamford
                         600                                                                                                     FHP Productivity
                                                     568



                         400




                         200




                           0
                                AVG Saturday   AVG Sunday   AVG Monday   AVG Tuesday     AVG       AVG Thursday   AVG Friday
                                                                                       Wednesday




                                                                             20
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation                                                                                NO-AR-06-010




                                            APPENDIX F
                                       COST PER 1,000 PIECES,
                                   FIRST HANDLING PIECES LETTERS


      $60.00

                                                                                            $54.18

                                                                                                                             $49.96
      $50.00                                                                                                      $48.98
                                                $47.09     $47.68     $47.78     $47.88                $47.19                           $46.62
                                     $45.01
               $42.76     $42.73
                                                             $39.97
                 $38.61                $39.14
      $40.00
                            $36.36                $36.27                $35.71
                                                                                                         $33.43                $32.94     $32.71
                                                                                              $31.33                $31.81
                                                                                   $30.19
      $30.00




      $20.00




      $10.00




       $0.00
               OCT-03     NOV-03     DEC-03     JAN-04     FEB-04     MAR-04     APR-04     MAY-04     JUN-04     JUL-04     AUG-04     SEP-04




                                        Bridgeport P&DF                               Stamford P&DC




                                                                        21
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation        NO-AR-06-010


                   APPENDIX G. MANAGEMENT’S COMMENTS




                                                     22
Bridgeport, Connecticut, Processing and
 Distribution Facility Outgoing Mail Consolidation        NO-AR-06-010




                                                     23
